App. 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-14446
-----------------------------------------------------------------------

D.C. Docket No. 1:19-cr-00077-LMM-RGV-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
FREDRICO PACHECO-ROMERO,
Defendant,
JEROME D. LEE,
STEPHEN ELIJAH BROWN-BENNETT,
TAYLOR, LEE & ASSOCIATES,
Interested Parties-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(April 28, 2021)
Before WILLIAM PRYOR, Chief Judge, JILL PRYOR,
Circuit Judge, and SELF,* District Judge.
* Honorable Tilman Eugene Self III, United States District
Judge for the Middle District of Georgia, sitting by designation.

App. 2
JILL PRYOR, Circuit Judge.
Attorneys Jerome Lee and Stephen Elijah BrownBennett of the law firm Taylor, Lee & Associates were
retained to represent six defendants who were charged
in federal district court with conspiring to possess with
intent to distribute methamphetamine. Shortly after
the defendants were arraigned, the district court disqualified the attorneys and the law firm from representing any of the defendants based upon an actual or
potential conflict of interest.
Before the district court entered the disqualification order, the law firm had collected a total of $21,000
from the defendants. Because the attorneys and the
law firm were disqualified so early in the case, questions arose about whether the law firm had earned the
entire fee it collected and, if it had not, whether the
portion of the fee that did not belong to the law firm
should be refunded to the defendants or used to reimburse the fees and expenses of the defendants’ appointed replacement counsel pursuant to the Criminal
Justice Act (“CJA”), 18 U.S.C. § 3006A(f ). The attorneys refused to comply with court orders directing
them to turn over information the court needed to determine what portion of the fee, if any, the law firm had
not earned. Because of their non-compliance, the district court ordered the law firm to pay $15,000 of the
$21,000 fee into the court’s registry. Eventually, the
law firm paid the money into the court’s registry and
the attorneys provided the requested information. The
court then determined that $8,000 of the funds in the
registry had been earned by and thus belonged to the

App. 3
law firm. Exercising its authority under the CJA, the
court directed that the remaining $7,000 be paid to the
CJA fund as reimbursement for the fees and expenses
incurred by defendants’ counsel who were appointed
by the court after the disqualification.
In this appeal, appellants Lee, Bennett, and the
law firm challenge the district court orders requiring
the firm to pay $15,000 into the court’s registry and
directing that $7,000 of those funds be paid to the CJA
fund to cover the fees and expenses of the defendants’
court-appointed counsel. After careful consideration
and with the benefit of oral argument, we affirm in
part and dismiss in part.
I.

FACTUAL BACKGROUND

In the underlying criminal case, six individuals
were charged in the United States District Court for
the Northern District of Georgia with conspiring to
possess with intent to distribute methamphetamine.
After their arrests, all six defendants retained the law
firm of Taylor, Lee & Associates to represent them. The
attorneys who represented the defendants were Lee,
one of the firm’s named partners, and Bennett, an associate of the firm. Under the terms of their engagement letters with the firm, each defendant agreed to
pay a flat fee of $7,500 for representation throughout
his criminal case. The flat fee was to be paid by each
defendant as follows: $3,500 up front and the remaining $4,000 in monthly installment payments.

App. 4
As it turns out, Lee and Bennett represented the
defendants only briefly. They appeared as counsel for
most of the defendants at their initial appearances and
for all the defendants at their detention hearings and
arraignments. Each defendant purported to waive any
conflict of interest arising from the joint representation. But the magistrate judge, who was presiding over
proceedings related to disqualification,1 expressed concern about the conflict-of-interest issues that might
arise from joint representation in a drug conspiracy
case. See Fed. R. Crim. P. 44(c)(2); United States v.
Wheat, 486 U.S. 153, 163-64 (1988) (discussing conflictof-interest issues that may arise when an attorney
“propose[s] to defend [multiple] conspirators of varying
stature in a complex drug distribution scheme”).
On March 14, 2019, the magistrate judge held a
hearing on disqualification. At the hearing, each defendant indicated that he wanted to continue with the
joint representation. The magistrate judge raised the
question of whether the law firm was being paid by the
defendants or some other third party. Each defendant
stated that he, or his family, had paid the law firm. And
Lee indicated that the firm could provide records confirming that the payments to the firm came from each
defendant or his family, not a third party.
After the hearing, the magistrate judge disqualified
the appellants from representing any of the defendants.
1

See Fed. R. Crim. P. 59(a) (permitting a district court judge
to “refer to a magistrate judge for determination any matter that
does not dispose of a charge or defense”).

App. 5
Noting the government’s allegations that the defendants had played differing roles in the drug-distribution
organization, the magistrate judge found that joint
representation by a single law firm of the six defendants charged in the conspiracy gave rise to “serious potential, if not actual, conflict of interest” issues. Doc. 76
at 4.2 After disqualifying the appellants, the magistrate judge determined that each defendant was financially unable to obtain counsel and appointed counsel
for each one pursuant to the CJA.3 See 18 U.S.C.
§ 3006A(c).
After the disqualification, the magistrate judge
raised the issue of whether, given the limited course of
the representation, the law firm was entitled to keep
its entire fee.4 At a hearing on March 26, the magistrate judge explained that the law firm was entitled to
keep at least a portion of the fee, for work that was
2

“Doc.” numbers refer to the district court’s docket entries.
Although some defendants replaced their appointed counsel with retained counsel, each defendant was represented by
court-appointed counsel for at least some portion of his criminal
case.
4
Georgia law permits an attorney to charge a client a flat fee
for representation in a criminal case. See Fogarty v. State, 513
S.E.2d 493, 497 (Ga. 1999). The attorney may not be entitled to
keep the entire flat fee, however, if the representation is terminated before the case ends. See In re Polk, 814 S.E.2d 327, 328-29
(Ga. 2018); see also Nash v. Studdard, 670 S.E.2d 508, 514 (Ga.
Ct. App. 2008) (recognizing that an attorney who had charged a
client a flat fee for representation in a criminal case had an obligation to return any “unearned portion” of the flat fee when the
representation was terminated while the criminal case remained
pending).
3

App. 6
performed before disqualification, but that it would
owe a partial refund if the total amount collected from
the defendants exceeded the fee that was earned prior
to disqualification. Because the law firm had received
at least one payment from each defendant, the magistrate judge explained, it appeared that the firm had
collected at least $21,000.5 In order to determine
whether the defendants were entitled to a refund, the
magistrate judge ordered Lee and Bennett, by March
29, to provide the court with an accounting showing
the fees each defendant paid to the law firm and the
services provided to each defendant. Lee and Bennett
agreed to provide the information by the deadline.
By the deadline, the only information the attorneys provided to the court was an affidavit from a family member of each defendant. Each affiant described
his or her relationship to the defendant and then
stated that money paid to the law firm came from the
affiant’s “personal funds.” See, e.g., Doc. 83 at 2. The affidavits did not disclose when any such payment was
made, the number of payments made, or the amount
paid.

5

By this point, the magistrate judge had received copies of
the defendants’ engagement letters with the law firm. Under the
terms of the engagement letters, signed on February 9 and February 11, the defendants agreed to make monthly installment
payments on the 9th or 11th of the month. Because the appellants
were disqualified on March 22, it was unclear to the magistrate
judge whether the law firm had received any monthly installment
payments from the defendants.

App. 7
Although the court also had directed the attorneys
to provide information showing the total amount the
defendants had paid to the law firm and identifying the
services the firm had provided to the defendants, the
attorneys did not provide this information, sought no
extension of time to provide this information, and offered no explanation for failing to provide this information.
On April 24, nearly a month after the accounting
information was due, the magistrate judge entered an
interim order addressing the status of the fees the defendants had paid to the law firm. The order noted that
the court had “afforded counsel the opportunity to submit an accounting” to address the firm’s entitlement to
the fees, yet they had failed to provide information
showing how much the law firm had collected from
each defendant or the services it had provided. Doc.
107 at 1.
The magistrate judge proceeded to make interim
findings related to the law firm’s fee. The magistrate
judge began with an understanding that the law firm
had collected a total of at least $21,000 in initial payments from the defendants. Based on the record showing that Lee and Bennett had represented the
defendants at their initial appearances, arraignments,
and detention hearings, the magistrate judge estimated that the law firm had earned $6,000 as reasonable compensation for these services.
In light of his estimates that the firm had collected
$21,000 from the defendants but earned a fee of only

App. 8
about $6,000, the magistrate judge directed the attorneys and the law firm, by April 30, to deposit the remaining $15,000 in fees the law firm had collected
from the defendants into the court’s registry. The magistrate judge said that the funds would be held in the
registry pending further proceedings inquiring into
whether they belonged to the firm or should be refunded to the defendants or “applied to the CJA fund.”
Id. at 1-2.
The appellants did not comply with this order.
They first sought a one-week extension of the deadline
to pay into the court’s registry, saying the firm needed
additional time to come up with $15,000. The magistrate judge extended the deadline to May 6. On May 6,
though, the appellants still had not paid any money
into the registry, requested another extension of time,
or explained their inability to comply with the extended deadline.
The magistrate judge then ordered the attorneys
to appear at a show-cause hearing, and also address in
writing, why sanctions should not be imposed. The appellants filed with the district court objections to the
magistrate judge’s order. In their objections, they asserted that the magistrate judge had no authority to
order the law firm to pay money into the court’s registry. They complained that the magistrate judge had
failed to afford them due process, arguing that before
entering the order requiring payment into the registry,
the magistrate judge supposedly had given them no opportunity to be heard on “what work had been done or

App. 9
exactly how much the Defendants had paid to” the law
firm. Doc. 125 at 5.
At the show-cause hearing on May 9, Lee represented that the law firm had not paid into the court’s
registry because it did not have $15,000 in its bank
account. He also complained that it was not “fair” or
“reasonable” for the court to inquire whether the law
firm had earned the fees the defendants had paid it.
Doc. 227 at 15.
On May 17, the district court overruled the objections. The district court ruled that the magistrate
judge had the authority to order the appellants to pay
a portion of the fees the law firm had received into the
court’s registry. The court found that each defendant
had paid a “substantial retainer[ ] prior to disqualification for services that would never be rendered.” Doc.
142 at 4. And because each defendant, for at least a
portion of the case, had been represented by courtappointed counsel, the court found that the CJA “empowered” the magistrate judge to recover money belonging to the defendants to offset the fees and
expenses of their appointed counsel. Id. (citing 18
U.S.C. § 3006A(f )).
The district court also rejected the argument that
the magistrate judge had failed to afford due process
before directing the appellants to pay the funds into
the court’s registry. The district court observed that
the magistrate judge had “issued several orders,
granted extensions of time, and held several hearings”
to give the appellants an “opportunity to provide an

App. 10
accounting.” Id. at 5. By doing so, the district court explained, the magistrate judge had given them an opportunity to be heard on what portion of the fees the
law firm had earned before the disqualification. “[H]aving not provided an accounting despite numerous orders and hearings on this issue,” the court said, the
appellants “cannot no[w] complain” that the magistrate judge “overestimated the proper . . . amount” to
be paid into the registry. Id. at 6. And, the court noted,
the inquiry into the total fees the law firm had earned
was not complete. The money would be held essentially
in “escrow” in the court’s registry so the appellants
“could still . . . provide billing evidence” to establish
how much the law firm had earned and potentially be
entitled to the return of some or all of the deposited
money. Id.
Even after the district court entered this order, the
appellants did not pay any funds into the court’s registry or provide an accounting. On May 20, the magistrate judge entered an order certifying facts for the
district court to consider in contempt proceedings
against the appellants. See 28 U.S.C. § 636(e)(6) (setting forth procedures for magistrate judge to certify to
district court facts related to contempt proceedings).
The district court then ordered the appellants to appear at a contempt hearing, instructing that they could
avoid being held in contempt by depositing $15,000
into the court’s registry and providing an accounting.
It was only at the contempt hearing on June 19
that the appellants finally agreed to deposit the
$15,000 and to submit an accounting. Immediately

App. 11
after the hearing, Lee paid $15,000 into the court’s registry, but the promised accounting information was not
supplied.
Afterward, the district judge entered an order notifying the appellants of her intention to hold them in
contempt and order them to pay $500 per day until
they provided an accounting. Before holding them in
contempt, however, the court gave the appellants “one
more opportunity to provide the accounting.” Doc. 170
at 9. Because the appellants then submitted time records detailing the services they had performed on the
defendants’ behalf, the court did not hold them in contempt.
The district court referred the issue of how the
money in the court’s registry should be distributed to
the magistrate judge. Noting that the appellants still
had not verified the total fees the law firm had collected from the defendants, the magistrate judge entered another order directing the appellants to provide
documentation verifying the amount of fees the defendants had paid to the law firm. About a month
later—now nearly five months after the magistrate
judge had first ordered the appellants to provide this
information—Lee submitted an affidavit stating that
the firm had received only an initial payment from
each defendant and had no receipts or bank records related to the payments.
The magistrate judge held a hearing where the appellants had yet another opportunity to be heard on
the total amount of fees the law firm had earned. At

App. 12
the hearing, Lee and Bennett admitted that they had
not kept contemporaneous time records reflecting the
time they spent working on the case. They relied on
their recollections of how much time they spent working on the case to create the time records that they filed
with the court.
After the hearing, the magistrate judge issued an
order addressing the distribution of funds in the
court’s registry. The judge found that the law firm had
collected total fees of $21,000 from the defendants.
Based on the scope of the legal services Lee and Bennett provided before their disqualification and their
hourly rates,6 the magistrate judge found that the appellants had earned total fees of $14,000. Accounting
for the $6,000 the law firm had been permitted to keep,
the magistrate judge directed the clerk of court to pay
the firm $8,000, plus accrued interest, from the funds
held in the court’s registry. After finding that the remaining $7,000 in the registry constituted funds
“available” to the defendants for CJA purposes, 18
U.S.C. § 3006A(f ), the magistrate judge directed the
clerk to pay this amount to the CJA fund “to defray the
expense associated with appointing counsel” for the defendants. Doc. 195 at 6.
The appellants objected to the magistrate judge’s
order. After the district court overruled their objections

6

The magistrate judge reduced Lee’s in-court hourly rate
from $500 per hour to $400 per hour and Bennett’s in-court hourly
rate from $350 per hour to $300 per hour.

App. 13
and directed compliance with the magistrate judge’s
order, they filed this appeal.7
II.

LEGAL ANALYSIS

Under the CJA, district courts must furnish legal
counsel to criminal defendants who are “financially unable to obtain counsel.” 18 U.S.C. § 3006A(b). The CJA
addresses the compensation of appointed attorneys. Id.
§ 3006A(d)(1).
If at any time after the appointment of counsel the
court finds that a defendant “is financially able to obtain counsel or to make partial payment,” the court
“may terminate the appointment of counsel or authorize payment as provided in subsection (f ), as the interests of justice may dictate.” Id. § 3006A(c). When a
court finds that “funds are available for payment from
or on behalf of a person furnished representation,” the
court may direct that the money be paid “to the appointed attorney, to the bar association or legal aid
agency or community defender organization which
provided the appointed attorney, . . . or to the court for
deposit in the Treasury as a reimbursement.” Id.
§ 3006A(f ).8
7

On appeal, the United States did not submit a brief or appear at oral argument. In a letter to the court, the government
explained that it chose not to participate in the appeal because it
had not been involved in the “hearing or . . . litigation in the district court concerning [the] fee” and did “not have a stake” in the
outcome. Jan. 22, 2021 Letter at 2.
8
The appellants argue that once a district court determines
a defendant is financially unable to obtain counsel, the court may

App. 14
On appeal, the appellants challenge on four
grounds the district court’s orders entered pursuant to
§ 3006A(f ). We begin by examining our appellate jurisdiction to review each ground. We then address the
merits of those challenges over which we have appellate jurisdiction.
A.
Federal law grants the courts of appeals “jurisdiction” to review “final decisions” of the district courts. 28
U.S.C. § 1291. This provision confers “jurisdiction to review decisions made by a district court in a judicial capacity.” Ayestas v. Davis, 138 S. Ct. 1080, 1089 (2018)
(emphasis in original). But “not all decisions made by
not make a finding under the CJA that funds are available to the
defendant. They misunderstand the CJA. As we explain above,
the CJA expressly permits a district court, after finding that a
defendant is financially unable to obtain counsel and appointing
counsel, to determine later that funds are available to the defendant and direct that those funds be paid to the Treasury as reimbursement for compensation paid to appointed counsel. 18 U.S.C.
§ 3006A(c), (f ).
To support their interpretation, the appellants cite to our
predecessor court’s decision in United States v. Jimenez, 600 F.2d
1172 (5th Cir. 1979). Even though Jimenez constitutes binding
precedent, see Bonner v. City of Prichard, 661 F.2d 1206, 1209
(11th Cir. 1981) (en banc), it does not change our analysis. Nothing in Jimenez prohibits a district court, after determining that a
defendant is financially unable to obtain counsel, from finding
that funds are available to the defendant nonetheless. In Jimenez,
our predecessor court merely recognized that after finding a defendant was financially unable to afford counsel, a district court
could not, without more, order as a condition of probation that the
defendant reimburse the government for the cost of his appointed
counsel. 600 F.2d at 1174.

App. 15
a federal district court are ‘judicial’ in nature; some decisions are properly understood to be ‘administrative’ ”
and are not subject to review under § 1291. Id. (quoting
Hohn v. United States, 524 U.S. 236, 245 (1998)). We
have previously held that because district court orders
under § 3006A(f )—whether directing a person to pay
money into the court’s registry or directing a court
clerk to pay money from the registry to cover the cost
of appointed counsel—are administrative, not judicial,
in nature, we generally lack jurisdiction under § 1291
to review them. United States v. Griggs, 240 F.3d 974,
974 (11th Cir. 2001); see United States v. Owen, 963
F.3d 1040, 1053 (11th Cir. 2020).
There is one exception to this rule, however. We
may review district court orders under § 3006A(f ) to
ensure that the “district court complied with the procedural requirements of § 3006A.” Owen, 963 F.3d at
1053 (citing United States v. Bursey, 515 F.2d 1228 (5th
Cir. 1975)).
With these principles in mind, we examine our
jurisdiction to review each of the appellants’ four
grounds for challenging the district court’s orders in
this case.9 Three of these grounds concern the district
9

We raise sua sponte the question of whether we have jurisdiction under § 1291 to review the district court’s orders. See Corley v. Long-Lewis, Inc., 965 F.3d 1222, 1233 (11th Cir. 2020)
(“[L]ongstanding principles of federal law oblige us to inquire sua
sponte whenever a doubt arises as to the existence of federal jurisdiction.” (internal quotation marks omitted)); Corsello v. Lincare, Inc., 276 F.3d 1229, 1230 (11th Cir. 2001) (reflecting that the
question of whether a district court order constituted a final decision for purposes of § 1291 is a jurisdictional issue subject to sua
sponte review).

App. 16
court’s failure to comply with the procedural requirements of § 3006A(f ). They include that the district
court: lacked the authority to raise sua sponte the
question of whether a portion of the fees paid to the
appellants were available to the defendants for purposes of the CJA, failed to perform an appropriate inquiry into whether the funds were available to the
defendants before compelling the payment of funds
into the court’s registry, and improperly required the
appellants to pay funds into the court’s registry before
any appointed counsel had submitted a payment
voucher. We have jurisdiction to review these challenges. See Owen, 963 F.3d at 1053-54.
We lack jurisdiction, though, to review the appellants’ fourth challenge, that the district court erred in
finding that a portion of the funds were available to the
defendants. This argument does not fit within the narrow exception that permits us to review a district
court’s compliance with § 3006A’s procedures. See id.
at 1053. We therefore address it no further.
We now turn to the merits of the challenges over
which we have jurisdiction.
B.
We begin with the appellants’ argument that the
district court lacked the authority to raise sua sponte
the question of whether a portion of the fees paid to the
appellants were “available for payment from or on behalf of ” the defendants. 18 U.S.C. § 3006A(f ). We discern no error.

App. 17
The CJA contemplates a district court’s sua sponte
inquiry into the availability of funds. The statute
makes no mention of motions to investigate a defendant’s financial status. Instead, the CJA provides that a
judge may require partial payment “[i]f at any time after the appointment of counsel the . . . court finds that
the person is financially able” to pay. 18 U.S.C.
§ 3006A(c) (emphasis added).
Next, we consider the appellants’ argument that
the district court failed to perform an appropriate inquiry before ordering them, under the threat of contempt, to pay $15,000 into the court’s registry. We find
the argument meritless.
To satisfy the procedural requirements of
§ 3006A(f ), a district court must make an “appropriate
inquiry” into the availability of funds. Owen, 963 F.3d
at 1053-54 (internal quotation marks omitted). To perform an appropriate inquiry, the district court must
give an interested party “notice and an opportunity to
be heard” on the funds-availability issue. Id.; Bursey,
515 F.2d at 1236. A binding decision from our predecessor court established that a district court must
make an appropriate inquiry before directing the clerk
to pay funds from the court’s registry. Bursey, 515 F.2d
at 1236. But we have not decided whether a district
court also must make an appropriate inquiry before directing an interested party to pay money into the
court’s registry. See Owen, 963 F.3d at 1054. In Owen,
we observed that the text of § 3006A(f ) “suggests” that
a district court must perform an appropriate inquiry
before directing money to be paid in the registry. Id.

App. 18
But we did not resolve this question in Owen because
we assumed, without deciding, that such an inquiry
was required. Id. Following that approach, we again
assume, without deciding, that the district court had to
perform an appropriate inquiry before directing the
appellants, who were interested parties, to pay money
into the court’s registry.
The district court performed a thoroughly appropriate inquiry before entering its order directing the
payment of $15,000 into the court’s registry. Within
days after the appellants were disqualified, the magistrate judge raised the question of whether the law firm
could keep all of fees it had been paid or “whether some
portion of the fees . . . should be refunded” to the defendants. Doc. 136 at 14. This put the appellants on notice as of March 26 that the court was considering
whether a portion of the fees paid to the law firm belonged instead to the defendants. After identifying this
issue, the magistrate judge gave the appellants an opportunity to be heard by directing them to submit, by
March 29, an accounting addressing how and by whom
the fees had been paid and what services the attorneys
had performed to earn the fees before their disqualification. It was only after the appellants ignored the order and refused to provide this information that the
magistrate judge, on April 24, directed the appellants
to pay $15,000 into the court’s registry.
But that is not all. The appellants were able to
seek further review in the district court when they
filed objections to the magistrate judge’s order. The district court reviewed their objections, considering

App. 19
whether the magistrate judge’s ruling was “contrary to
law or clearly erroneous,” thus giving them another opportunity to be heard on whether the funds belonged
to the law firm. Fed. R. Crim. P. 59(a); see 28 U.S.C.
§ 636(b)(1)(A). Because the appellants received sufficient notice and several opportunities to be heard on
what portion of the total fees belonged to the law firm
versus the defendants before they were to pay money
into the court’s registry, we conclude that the district
court performed an appropriate inquiry that complied
with the procedural requirements of § 3006A(f ).
Even if we assume that the district court failed to
afford the appellants adequate notice and opportunity
to be heard before directing them to pay money into
the court’s registry, we would conclude that any error
was harmless because the district court afforded them
appropriate process before directing the clerk to pay
the money out of the court’s registry. See Owen, 963
F.3d at 1054. When the court entered the order requiring payment into the court’s registry, it invited them to
present information proving they were entitled to the
funds in “escrow.” Doc. 142 at 6. The appellants then
had several more opportunities to be heard on the total
fee the law firm had earned before the district court
made its final determination that $7,000 of the funds
paid to the firm constituted “funds available for payment” from or on behalf of the defendants and directed
the money to be paid into the CJA Fund. Doc. 206 at 6
(citing 18 U.S.C. § 3006A(f )). And appellants have
identified no harm that they suffered because of this
timing.

App. 20
True, the appellants try to attack the timing of the
proceedings by saying it was not “until after [they] had
already been threatened with contempt and forced to
surrender the funds that § 3006A(f ) was even mentioned as the basis for the lower courts’ authority.” Appellants’ Br. at 15-16 (emphasis in original). The record
flatly contradicts their assertion, however. The magistrate judge’s order directing the law firm to pay
$15,000 into the court’s registry, issued on April 24,
identified the CJA as a source of the court’s authority
for its inquiry into whether the funds belonged to the
attorneys or the defendants. See Doc. 107 at 2 (stating
that “a portion of the fees paid to” the law firm may be
“applied to the CJA fund”).10 And on May 17, when the
district court overruled the appellants’ objections to
this order, it recognized that a finding that a portion of
the fees belonged to the defendants would mean that
this money constituted funds available to the defendants that could be used to reimburse the fees and expenses of their appointed counsel under the CJA. See
Doc. 142 at 4 (citing 18 U.S.C. § 3006A(f )). It was after
these two orders, on May 22, that the show-cause order
threatening contempt sanctions was issued. We therefore reject the appellants’ procedural argument.
Lastly, we evaluate the appellants’ argument that
the district court should not have ordered them to pay
10

Significantly, it was on April 23 and April 24 that the magistrate judge entered the orders finding that each defendant was
financially unable to employ counsel and appointing counsel under the CJA. Thus, the magistrate judge invoked the court’s authority under the CJA as soon as the statute was implicated by
the appointment of CJA counsel.

App. 21
over any funds until after appointed counsel submitted
their CJA payment vouchers. This argument also fails.
The CJA broadly permits a district court or magistrate judge to “authorize or direct” payment of available funds “[w]henever” it finds that the funds are
available. 18 U.S.C. § 3006A(f ) (emphasis added); see
also United States v. Robertson, 980 F.3d 672, 677 (9th
Cir. 2020) (“The plain language of [section 3006A(f )]
makes it clear that the district court acted within its
discretion when it . . . ordered reimbursement and payment for future defense costs before sentencing.” (internal quotation marks omitted)); 7A Guide to
Judiciary Policy § 210.40.40 (instructing courts to “direct the person to pay the available excess funds to the
clerk of the court at the time of [counsel’s] appointment
or from time to time after that”). Given this plain language, the district court committed no procedural error
based on the timing of its order directing the appellants to pay funds into the court’s registry.
III.

CONCLUSION

We dismiss for lack of jurisdiction the appellants’
challenge to the district court’s determination that
funds were available to the defendants. As to all the
appellants’ other challenges, we affirm.
AFFIRMED IN PART, DISMISSED IN PART.

App. 22
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA

CRIMINAL CASE NO.
1:19-CR-0077-LMM-RGV

v.
FREDRICO PACHECOROMERO, et al.,

ORDER
(Filed Apr. 24, 2019)
Following an ex parte hearing on March 26, 2019,
[Doc. 79], attorneys Jerome D. Lee (“Lee”) and S. Eli
Bennett (“Bennett”) submitted affidavits from the individuals who paid the retainers for the representation
of defendants Fredrico Pacheco-Romero, Carlos Martinez, Eduardo Lopez, Victor Manuel Sanchez, Jorge
Mendoza-Perez, and Santana Cardenas, collectively
referred to as “defendants,” see [Doc. 83 at 2-15]. Lee
and Bennett had previously submitted letters of engagement for the representation of each defendant
showing the terms of payment for their representation.
[Doc. 84]. After Lee and Bennett and their firm were
disqualified from representing these defendants, [Doc.
76], the Court afforded counsel the opportunity to submit an accounting of the fees paid for each defendant
and services provided, including the amount of fees
counsel contend they have earned for services provided
prior to their disqualification, [Doc. 79], but they failed
to do so. Having considered the representation counsel
provided until they were disqualified, the Court

App. 23
concludes that a portion of the fees paid to Lee and
Bennett and their firm for representation of these defendants should either be refunded or applied to the
CJA fund since defendants now have court-appointed
counsel.
Accordingly, the Court ORDERS Lee and Bennett
and their firm to deposit into the registry of the Court
the sum of $15,000 by April 30, 2019, as the Court finds
that the balance of the fees paid to them provides reasonable compensation for the services Lee and Bennett
provided prior to disqualification. Newly appointed
counsel shall promptly provide a copy of this Order to
their clients to notify them that the individuals who
paid fees to Lee and Bennett on their behalf for representation in this case may petition the Court for a partial refund of a portion of the fees deposited with the
Clerk by Lee and Bennett and their firm. Any such petition shall be filed in this case by May 10, 2019, and
shall include proof of payment and the amount of refund requested. At the pretrial conference in this case,
the Court will address further proceedings with respect to any petitions for partial refund of fees paid,
including the scheduling of an evidentiary hearing.
IT IS SO ORDERED, this 24th day of APRIL,
2019.
/s/ Russell G. Vineyard
RUSSELL G. VINEYARD
UNITED STATES
MAGISTRATE JUDGE

App. 24
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA
V.
FREDRICO PACHECOROMERO, ET AL.,

DOCKET NO.
1:19-CR-77-LMM-RGV-1
ATLANTA, GEORGIA
MAY 9, 2019

DEFENDANTS.
TRANSCRIPT OF SHOW CAUSE HEARING
BEFORE THE HONORABLE
RUSSELL G. VINEYARD
UNITED STATES MAGISTRATE JUDGE
APPEARANCES OF COUNSEL:
FOR THE GOVERNMENT:
THEODORE S. HERTZBERG
TYLER A. MANN
OFFICE OF THE U.S. ATTORNEY
ALSO PRESENT:
S. ELI BENNETT
JEROME D. LEE
COURT REPORTER:
ANDY ASHLEY
1949 U. S. COURTHOUSE
75 TED TURNER DRIVE
ATLANTA, GEORGIA 30303-3361
(404) 215-1478

App. 25
PROCEEDINGS RECORDED BY MECHANICAL
STENOGRAPHY, TRANSCRIPT PRODUCED BY
COMPUTER.
[2] PROCEEDINGS
(ATLANTA, FULTON COUNTY, GEORGIA; MAY 9,
2019 IN OPEN COURT.)
THE COURT: THIS IS THE CASE OF THE
UNITED
STATES
OF
AMERICA
VERSUS
FREDRICO PACHECO-ROMERO, ET AL., CASE
NUMBER 1:19-CR-77. WE’RE HERE FOR A SHOW
CAUSE HEARING BASED ON AN ORDER ENTERED ON MAY 7TH, 2019. WE HAVE MR.
HERTZBERG AND MR. MANN ON BEHALF OF
THE UNITED STATES. MR. LEE AND MR. BENNETT ARE PRESENT HERE IN COURT.
MR. LEE, MR. BENNETT, HAVE YOU
BROUGHT THE FUNDS TO DEPOSIT INTO THE
REGISTRY OF THE COURT AS ORDERED TO DO
SO?
MR. LEE:

I DO NOT HAVE THE MONEY,

JUDGE.
THE COURT:

MR. BENNETT.

MR. BENNETT:

NO, YOUR HONOR.

THE COURT: OKAY. DO YOU ALL WISH
TO EXPLAIN WHY YOU DO NOT HAVE THE
FUNDS TO DEPOSIT INTO THE REGISTRY OF
THE COURT?

App. 26
YOU CAN COME TO THE PODIUM, PLEASE,
SIR.
MR. LEE: THIS IS OUR PAYROLL CYCLE,
AND SO WE MISSED PAYROLL ACTUALLY, AND
SO NORMALLY OUR NORMAL WEEK WE WILL
HAVE RECOVERED BY TUESDAY OR WEDNESDAY. THIS WEEK WE HAVE NOT RECOVERED BY
THAT POINT IN TIME, AND WE ARE STILL SHORT,
AND I STILL HAVE A BUNCH OF STUFF OUT.
I MEAN IF I GAVE YOU A CHECK, I COULDN’T
EVEN VOUCH FOR IT BEING LEGITIMATE. SO IF
I EVEN ASKED CHRIS TO WRITE ME [3] A CHECK
FROM THE FIRM, I COULD GIVE IT TO THE
CLERK, BUT I COULD NOT GUARANTEE IF IT
WAS DEPOSITED IT WOULD ACTUALLY CLEAR.
THE COURT: WELL, DO YOU HAVE ANY
FUNDS PERSONALLY?
MR. LEE: I NEVER RECEIVED ANY OF
THESE FUNDS PERSONALLY.
THE COURT: WELL, DO YOU HAVE ANY
FUNDS PERSONALLY? YOU’RE A PARTNER IN
THE FIRM, RIGHT?
MR. LEE:

YES, BUT I –

THE COURT: DO YOU HAVE ANY FUNDS
PERSONALLY TO MEET THE 15,000 DOLLAR OBLIGATION?
MR. LEE: YES, I COULD, BUT LIKE I
SAID, JUDGE, I DIDN’T RECEIVE THESE FUNDS.

App. 27
OUR ENGAGEMENT AGREEMENT IS WITH THE
FIRM. THAT’S WHERE THE MONEY WENT. THAT’S
WHO HAS THE MONEY. I DO NOT PERSONALLY
HAVE THE MONEY TO RETURN BECAUSE I
NEVER RECEIVED IT IN THE FIRST PLACE.
THE COURT: WELL, DID THE FIRM SET
ASIDE THE MONEY AS YOU WERE DIRECTED TO
DO SO LAST MONTH?
MR. LEE: JUDGE, WE ARE NOT IN A POSITION TO SET ASIDE MONEY. WE’RE JUST RUNNING TOO TIGHT RIGHT NOW.
THE COURT: SO DESPITE THE COURT’S
DIRECTION, THE FIRM DID NOT SET ASIDE
MONEY OR INFORM THE COURT THAT IT COULD
NOT SET ASIDE THE FUNDS?
MR. LEE: TO MY KNOWLEDGE THE
FIRM DID NOT SET ASIDE MONEY, JUDGE.
[4] THE COURT: AND YOU’VE NOT INFORMED ME UNTIL TODAY THAT YOU DO NOT
HAVE THE FUNDS?
MR. LEE: NO, I TOLD YOU ON THE FIRST
DEADLINE, JUDGE, I SAID I DO NOT HAVE THE
FUNDS BECAUSE IT WAS A PAYROLL WEEK.
THE COURT: YES, AND YOU SOUGHT
AN EXTENSION UNTIL MAY 6TH.
MR. LEE: BECAUSE I THOUGHT NORMALLY WE CAN NORMALLY CLEAR STUFF BY
THE FIRST OF THE WEEK, BUT THIS HAS BEEN

App. 28
A VERY SLOW WEEK GOING INTO MEMORIAL
DAY, GOING INTO THE FIRST OF THE MONTH,
EVERYBODY IS PAYING RENT. PAYING YOUR
LAWYER IS AT THE BOTTOM OF THE LIST AT
THIS TIME.
THE COURT: BUT YOU DIDN’T SEEK
ANY EXTENSION BASED ON THE REPRESENTATION THAT THE FIRM DOESN’T HAVE THE
MONEY TO PAY INTO THE COURT? IN OTHER
WORDS, THE MAY 6TH DEADLINE CAME AND
PAST WITHOUT EITHER PAYMENT, DEPOSIT OF
THE FUNDS OR ANY REQUEST FOR AN EXTENSION?
MR. LEE: I STILL THOUGHT I WOULD
BE ABLE TO COME UP WITH IT, AND SO I WAS
STILL TRYING TO SEE IF I CAN GET IT TOGETHER.
THE COURT: WELL, MR. LEE, YOU’VE
ALREADY SAID YOU HAVE THE FUNDS PERSONALLY TO MEET THE OBLIGATION. IT’S THE FIRM
THAT DOESN’T HAVE THE FUNDS.
MR. LEE: WELL, THIS IS THE FIRM’S OBLIGATION, SO I WOULD NOT PERSONALLY PUT
MY FUNDS TO COVER A FIRM EXPENSE. OH, [5]
IF IT WERE AN OPERATING – IF IT WAS SOMETHING TO DO WITH US, THE FIRM STAYING
OPEN, THEN THERE’S NOT A LOT ABOUT THAT,
YES, I WOULD, BUT LIKE I SAID, THIS DOES NOT
INVOLVE THE FIRM STAYING OPEN.

App. 29
THE COURT: BUT THE ORDER WAS TO
DEPOSIT THE FUNDS BASED ON THE EXTENSION YOU REQUESTED AND I GRANTED TO MAY
6TH, AND WHEN THE FUNDS WEREN’T DEPOSITED, MS. ZARKOWSKY REACHED OUT TO YOUR
FIRM AND GOT NO RESPONSE IN TERMS OF A
REQUEST FOR FURTHER EXTENSION OR ANY
EXPLANATION UNTIL JUST NOW WHEN YOU’VE
JUST TOLD ME THAT YOU DON’T HAVE – THE
FIRM DOESN’T HAVE THE FUNDS TO DEPOSIT
INTO THE REGISTRY OF THE COURT; IS THAT
RIGHT?
MR. LEE: THAT’S ACCURATE, THAT’S
AN ACCURATE RETELLING OF THE EVENTS,
JUDGE.
THE COURT:
SEATED, MR. LEE.

OKAY.

YOU

MAY

BE

MR. BENNETT, WOULD YOU COME TO THE
PODIUM.
MR. BENNETT:

YES, SIR.

THE COURT: SO, MR. BENNETT, YOU
AND MR. LEE AND THE FIRM WERE ORDERED TO
DEPOSIT 15,000 DOLLARS INTO THE REGISTRY
OF THE COURT BY MAY 6TH.
MR. BENNETT:

YES, SIR.

THE COURT: THAT HASN’T HAPPENED.
MR. LEE SAYS THE FIRM DOESN’T HAVE THE

App. 30
FUNDS TO MAKE THAT DEPOSIT; IS THAT
RIGHT?
MR. BENNETT: I WOULD HAVE NO PERSONAL KNOWLEDGE OF [6] THAT. I’M ONLY AN
ATTORNEY. I’M AN ASSOCIATE ATTORNEY IN
THE FIRM. I’M A W-2 EMPLOYEE. THAT’S NOT –
THAT DOESN’T CONCERN ME. I DON’T CONCERN
MYSELF WITH FINANCIAL MATTERS EVEN
WITH CLIENT INTAKE, TAKING PAYMENTS, ANYTHING OF THAT NATURE.
THE COURT: SO YOU HAVE NO INFORMATION ABOUT THE ABILITY TO PAY THE 15,000
DOLLARS?
MR. BENNETT: NO, SIR, BUT I WOULD
BELIEVE MR. LEE’S ACCOUNT BASED ON MY
OWN EXPERIENCE WITH THE FIRM AND HOW IT
OPERATES.
THE COURT: DO YOU INDIVIDUALLY
HAVE THE FUNDS AVAILABLE TO PROVIDE THE
15,000 DOLLARS INTO THE REGISTRY OF THE
COURT?
MR. BENNETT:

YES, SIR.

THE COURT: ALL RIGHT. SO YOU AND
MR. LEE TOGETHER WOULD HAVE THAT ABILITY TO DO SO?
MR. BENNETT:
LIEVE I WOULD.
THE COURT:

PERSONALLY

ALL RIGHT.

I

BE-

App. 31
MR. BENNETT: HOWEVER, I ACCEPTED
NO PAYMENTS FROM THESE CLIENTS.
THE COURT: AND YOU WERE AWARE
OF THE MAY 6TH DEADLINE?
MR. BENNETT:
THE COURT:

AND IT WAS NOT MET.

MR. BENNETT:
THE COURT:
REQUESTED?

YES, SIR.

NO, SIR.

AND NO EXTENSION WAS

[7] MR. BENNETT: NOT REGARDING
THE MAY 6TH DEADLINE, NO, SIR.
THE COURT:
NATION FOR THAT?

DO YOU HAVE ANY EXPLA-

MR. BENNETT:
THE
SEATED.

COURT:

MR. BENNETT:

NO, SIR.
OKAY.

YOU

MAY

BE

THANK YOU.

THE COURT: THE ORDER ENTERED ON
MAY 7TH ALSO REQUIRED YOU TO RESPOND IN
WRITING AS TO WHY SANCTIONS, WHICH
COULD INCLUDE THE INITIATION OF CONTEMPT PROCEEDINGS, SHOULD NOT BE IMPOSED FOR FAILURE TO COMPLY WITH THE
COURT’S ORDERS.

App. 32
DO YOU HAVE A WRITTEN SUBMISSION, MR.
LEE?
MR. LEE: JUDGE, I WILL BE ABLE TO
FILE THOSE BEFORE THE DAY IS OVER, AND
THEN THE OTHER PART OF IT, TOO, JUDGE, IS I
MEAN I TECHNICALLY OBJECTED TO THE ORDER BECAUSE, LIKE I SAID, I THINK THERE ARE
ISSUES HERE, BUT ASIDE FROM THAT, I MEAN I
THINK I INTERPRETED THE RULE 59 REQUEST
AS TO BE A WRITTEN RESPONSE TO THE ORDER,
BUT IF YOU WANT ME TO SUBMIT SOMETHING
IN ADDITION TO THAT, I CAN.
THE COURT: WELL, THE ORDER OF
MAY THE 7TH REQUIRED YOU TO APPEAR AT
THIS TIME, AND WE’RE ACTUALLY LATE, IT’S
10:40, BECAUSE OUR INTERPRETER WAS LATE
GETTING TO COURT FOR THE PREVIOUS PROCEEDING, REQUIRED YOU TO APPEAR, TO SHOW
CAUSE IN PERSON AND IN WRITING WHY SANCTIONS, WHICH COULD INCLUDE THE INITIATION OF CONTEMPT PROCEEDINGS, SHOULD
NOT BE IMPOSED FOR [8] FAILURE TO COMPLY
WITH THE COURT’S ORDER OF MAY 24TH, AND –
I’M SORRY, APRIL 24TH AND MAY 2ND, 2019, AND
WHAT YOU’RE TELLING, MR. LEE, IS YOU DON’T
HAVE A WRITTEN RESPONSE AS ORDERED TODAY, OR AT THIS TIME YOU’VE NOT APPEARED
WITH A WRITTEN RESPONSE TO THE ORDER?
MR. LEE: I DIDN’T BRING A SECOND
WRITTEN RESPONSE, NO, SIR.

App. 33
THE COURT: WELL, THE – WE’LL TALK
ABOUT THE OBJECTION IN A MOMENT.
MR. BENNETT, DO YOU HAVE A WRITTEN RESPONSE AS ORDERED BY MAY 7TH?
MR. BENNETT: NO, SIR, I CONSTRUED,
MAYBE MISTAKENLY, THE RULE 59 OBJECTIONS
AS OUR RESPONSE. IF THERE’S A SEPARATE RESPONSE REQUIRED, I APOLOGIZE FOR THE MISUNDERSTANDING. I’LL PRODUCE ONE BEFORE
THE END OF THE DAY.
THE COURT: WELL, THE OBJECTIONS
THAT YOU REFERRED TO IS THAT DOCUMENT
NUMBER 125 THAT WAS FILED AFTER THE
SHOW CAUSE ORDER WAS ENTERED? THERE’S
ONLY ONE OBJECTION THAT’S ON THE RECORD
THAT I’M AWARE OF.
MR. LEE:

THAT’S CORRECT, JUDGE.

THE COURT: AND IT’S ENTITLED DEFENDANT’S OBJECTIONS TO THE MAGISTRATE
JUDGE’S COURT’S ORDER, AND IT PURPORTS TO
BE A DOCUMENT FILED ON BEHALF OF THE INDIVIDUAL DEFENDANTS NAMED WHO YOU’VE
BEEN DISQUALIFIED FROM REPRESENTING.
MR. LEE:

RIGHT.

[9] THE COURT: I DON’T SEE AN OBJECTION FROM TAYLOR, LEE & ASSOCIATES, LLC OR
FROM EITHER OF YOU INDIVIDUALLY ON THE
RECORD.

App. 34
THE TIME PAST FOR – THE TIME HAS PAST
FOR OBJECTING TO THE ORDER, AND SO ANY
OBJECTION HAS BEEN WAIVED, IT APPEARS TO
ME.
MR. LEE: JUDGE, THAT WAS JUST OUR
FORM. IF YOU DON’T STYLE THE TOP OF THAT,
YOU CAN’T – I MEAN CM/ECF LIKE I’VE NEVER
BEEN ABLE TO FILE SOMETHING AS MYSELF. SO
WHEN I WENT IN AND FILED IT THAT WAS HOW
WE – THAT’S JUST HOW IT WAS FILED.
I MEAN THAT’S BOILERPLATE OF THE – I
MEAN I JUST LITERALLY OPENED UP THE LAST
MOTION WE HAD AND CHANGED THE TOP AND
PUT IT IN FROM THERE. BECAUSE WHEN YOU
FILE UNDER CM/ECF YOU HAVE TO PICK SOMEONE UNDER WHOM TO FILE. THAT’S WHY IT’S
STYLED –
THE COURT: WELL, IF YOU HAVE A
PROBLEM WITH AN ECF FILING, YOU CAN COME
DOWN AND FILE AT THE COUNTER, AS WELL. IF
TAYLOR, LEE & ASSOCIATES AND YOU AND MR.
BENNETT ARE OBJECTING TO THE ORDER, YOU
HAD 14 DAYS TO DO SO, AND NO OBJECTIONS
WERE FILED ON BEHALF OF THOSE ENTITIES.
THE OBJECTIONS ARE NOT ONLY IN THE TITLE BUT IN THE CONTENT ARE PURPORTED ON
BEHALF OF INDIVIDUALS YOU DO NOT REPRESENT. YOU’VE BEEN DISQUALIFIED FROM REPRESENTING. AND TO ADDRESS A SECOND POINT,
YOU HAVE NOT IN THIS OBJECTION [10]

App. 35
ADDRESSED OR EXPLAINED OR SHOWN CAUSE
FOR YOUR FAILURE TO COMPLY WITH THE MAY
6TH DEADLINE. THESE OBJECTIONS WERE
FILED AFTER I ENTERED THE ORDER TO SHOW
CAUSE.
SO NOTHING HAS BEEN DONE, AND SO YOU
WERE AWARE OF THE ORDER, AND THESE DEFENDANTS’ OBJECTIONS DO NOT ADDRESS THE
FAILURE TO DEPOSIT THE FUNDS, AND YOU HAVEN’T COME TO COURT WITH THE FUNDS TODAY
DESPITE
THE
FACT
THAT
YOU
INDIVIDUALLY AND, MR. LEE, AM I CORRECT,
THAT YOU’RE A PARTNER IN THE FIRM?
MR. LEE:

I AM.

THE COURT: AND THAT YOU HAVE NOT
DEPOSITED THE FUNDS AS ORDERED. YOU
HAVE NOT COME TO COURT WITH A WRITTEN
RESPONSE AS ORDERED.
WHAT OTHER – WHAT WOULD YOU LIKE
FOR ME TO TAKE INTO CONSIDERATION IN DECIDING WHAT SANCTIONS SHOULD BE IMPOSED, MR. LEE?
MR. LEE:

AGAIN, JUDGE –

THE COURT:
PLEASE, SIR.

COME TO THE PODIUM,

MR. LEE: JUDGE, I THINK WE HAVE
MADE OBJECTIONS TO – UNDER THE RULE 59,
AND I GUESS TO BE PERFECTLY CLEAR ABOUT

App. 36
A COUPLE OF THINGS – WELL, THAT DOESN’T
MATTER.
I THINK WE HAVE MADE OBJECTIONS,
JUDGE, AND LIKE I SAY IT WAS JUST A BOILERPLATE IN THE FORM OF THE ISSUE, BUT AS FAR
AS MY INTERPRETATION IS WE HAVE MADE OBJECTIONS, AND THAT’S WHAT WE CONSIDER TO
BE OUR WRITTEN RESPONSE.
[11] AND THEN IN TERMS OF THE OTHER
THINGS, LIKE I SAID, I’M THE ONLY ONE THAT
REALLY PROBABLY COULD SAY WHETHER OR
NOT THE FIRM HAD THE CAPABILITY OF MAKING THE PAYMENT, AND I’M STATING IN MY
PLACE THAT WE WERE NOT ABLE TO MAKE THE
PAYMENT, OR MAKE IT IN THE WAY LIKE I SAID
IF I BROUGHT A CHECK DOWN HERE, I COULD
NOT GUARANTEE IT WOULD CLEAR BASED ON
THE BALANCES THAT WE HAVE.
AND THEN IN TERMS OF – I CAN’T REMEMBER NOW THE THIRD PART OF THAT, BUT I
GUESS IN TERMS OF IF WE’RE IGNORING ALL OF
THAT, THEN I WOULD SAY THAT MY PRIMARY
DEFENSE IS THAT WE ARE UNABLE TO PAY, AND
THAT WE DID NOT INDIVIDUALLY RECEIVE THE
FUNDS IN QUESTION. WE WERE NOT LISTED ON
THE ENGAGEMENT AGREEMENTS, AND SO I AM
NOT RESPONSIBLE PERSONALLY FOR THE RETURN OF FUNDS. SO THAT’S OUR POSITION ON
THAT.
THE COURT:

ALL RIGHT.

App. 37
MR. BENNETT: I WOULD ECHO THAT
POSITION, YOUR HONOR.
THE COURT:

YOU HAVE NOTHING TO

ADD?
MR. BENNETT:

NO, SIR.

THE COURT: ALL RIGHT. I’M GOING TO
LET THE RECORD REFLECT THE HISTORY OF
THE PROCEEDINGS HERE BECAUSE I THINK
THERE’S BEEN A PATTERN OF DISOBEYING
COURT ORDERS IN THESE MATTERS BY MR. LEE
AND MR. BENNETT, AND I’M GOING TO RECITE
THAT RECORD AND ALLOW YOU TO ENTER ANY
RESPONSE TO THAT AS I MAKE THESE ENTRIES
INTO THE RECORD.
THE COURT CONDUCTED A RULE 44 HEARING ON MARCH THE [12] 14TH. AS PART OF THAT
I CONDUCTED AN EX PARTE PROCEEDING WITH
MR. LEE AND MR. BENNETT. DURING THAT EX
PARTE, THEY WERE DIRECTED TO PROVIDE
CERTAIN INFORMATION TO THE COURT BY
MARCH THE 21ST SPECIFICALLY IDENTIFYING
THE PERSONS WHO PAID THE RETAINERS FOR
THE REPRESENTATION OF THE DEFENDANTS
AND EXPLAIN THAT RELATIONSHIP TO THOSE
DEFENDANTS, AND THE SOURCE OF THE
FUNDS. COUNSEL FAILED TO DO SO BY MARCH
21ST.
SO ON MARCH 22ND I ISSUED AN ORDER REQUIRING COUNSEL TO APPEAR ON MARCH 26TH

App. 38
TO PROVIDE THE RECORDS REQUESTED AND
TO ADDRESS WHETHER ANY PORTION OF THE
FEES PAID TO THEM SHOULD BE REFUNDED.
COUNSEL WAS ALSO ORDERED TO NOTIFY
EACH INDIVIDUAL WHO PAID FEES ON BEHALF
OF THE DEFENDANTS OF THE HEARING TO ALLOW THOSE INDIVIDUALS AN OPPORTUNITY TO
ATTEND THE HEARING.
ON MARCH 26TH I CONDUCTED AN EX
PARTE HEARING WITH COUNSEL IN WHICH WE
DISCUSSED A POSSIBLE REFUND OF A PORTION
OF THE FEES. COUNSEL APPEARED BUT DID
NOT PROVIDE THE DOCUMENTS AS ORDERED
TO DO SO ON MARCH 22ND.
COUNSEL WAS ORDERED TO SUBMIT AFFIDAVITS BY FRIDAY, MARCH 29TH. THAT DATE
WAS SELECTED AFTER CONFERRING WITH
COUNSEL ABOUT THEIR ABILITY TO PROVIDE
THE INFORMATION REQUIRED BY THE COURT.
COUNSEL WAS ALSO ORDERED TO PROVIDE BY
THAT SAME DATE AN ACCOUNTING OF THE
FEES PAID FOR EACH DEFENDANT, SERVICES
PROVIDED, INCLUDING THE AMOUNT OF FEES
THAT COUNSEL CONTEND THEY HAVE EARNED
FOR SERVICES PROVIDED PRIOR TO DISQUALIFICATION.
[13] COUNSEL I BELIEVE WILL RECALL
THAT WE DISCUSSED THAT THE COURT RECOGNIZED THAT YOU HAD EARNED FEES FOR
WHICH YOU SHOULD BE PAID, AND I PROPOSED

App. 39
A PROCEDURE THAT WOULD ALLOW YOU REASONABLE COMPENSATION, AND AT THAT TIME
DIRECTED YOU TO SET ASIDE 20,000 DOLLARS
IN A SEPARATE ACCOUNT TO BE AVAILABLE IF
FUNDS – IF A PORTION OF THOSE FUNDS WERE
TO BE REFUNDED.
MY RECOLLECTION, THOUGH I STAND TO
BE CORRECTED, IS THAT COUNSEL AGREED
THE PROCEDURE WAS FAIR AND REASONABLE,
AND I BELIEVE THOSE WERE THE WORDS USED
BY COUNSEL. NO OBJECTION WAS RAISED WITH
RESPECT TO THE NOTION OF THERE BEING A
PROCEDURE TO EXPLORE THE POSSIBLE PORTION REFUND OF FEES. THE DEADLINE OF
MARCH 29TH WAS NOT MET. COUNSEL DID NOT
PROVIDE THE INFORMATION.
WE DID RECEIVE IN CHAMBERS ON APRIL
2ND THE AFFIDAVITS, BUT THEY PROVIDED NO
RECORD OF THE FEES PAID OR AN AMOUNT
THAT THEY CLAIM TO BE RETAINED FOR THEIR
SERVICES PROVIDED.
ON APRIL 23RD THE COURT QUALIFIED
EACH OF THE INDIVIDUAL DEFENDANTS TO
HAVE APPOINTED COUNSEL BASED ON THEIR
REPRESENTATION THAT THEY DID NOT HAVE
THE FUNDS TO HIRE COUNSEL. SOME INDICATED THAT THEIR FAMILY MEMBERS MAY
SEEK TO RETAIN COUNSEL. SOME INDICATED
THAT THEY HAD NOT BEEN REFUNDED FEES.
OTHERS SIMPLY DID NOT KNOW.

App. 40
SO ON APRIL 24TH, THE COURT ENTERED
AN ORDER FOR MR. LEE, MR. BENNETT AND
THEIR FIRM TO DEPOSIT 15,000 DOLLARS INTO
[14] THE REGISTRY OF THE COURT BY APRIL
30TH, AND NOTED THAT A FUTURE HEARING
WOULD BE HELD TO ADDRESS ANY CLAIMS FOR
PARTIAL REFUND AND TO DETERMINE
WHETHER ANY OF THOSE FUNDS SHOULD BE
APPLIED TO THE CJA BASED ON THE APPOINTMENT OF COUNSEL FOR THE DEFENDANTS.
ON APRIL 30TH MR. LEE, MR. BENNETT AND
THE FIRM MOVED FOR AN EXTENSION TO MAY
6TH TO DEPOSIT THE FUNDS BECAUSE OF PAYROLL WEEK. NO OBJECTION MENTIONED TO
THE DEPOSIT OF THE FUNDS INTO THE REGISTRY. THE EXTENSION WAS GRANTED TO MAY
6TH.
ON MAY 6TH THE FUNDS WERE NOT DEPOSITED. NO MOTION FOR AN EXTENSION WAS
FILED. THERE WAS NO RESPONSE TO EMAIL
COMMUNICATIONS FROM MY COURTROOM
DEPUTY CLERK TO THE FIRM TO INQUIRE
ABOUT THE STATUS.
THEREFORE, ON MAY 7TH I ISSUED THE ORDER TO APPEAR WITH THE FUNDS IN COURT
AND TO SHOW CAUSE WHY SANCTIONS SHOULD
NOT BE IMPOSED, TO RESPOND IN PERSON AND
IN WRITING, AND THE RECORD REFLECTS TODAY THAT COUNSEL AND THE FIRM HAVE NOT
APPEARED WITH FUNDS AND HAVE NOT

App. 41
PROVIDED A WRITTEN RESPONSE DESPITE
THEIR CONTENTION THAT THE DEFENDANTS’
OBJECTIONS TO THE ORDER WOULD QUALIFY
FOR THAT.
MR. LEE, DO YOU HAVE ANYTHING YOU
WANT TO CORRECT ABOUT THE SUMMARY?
MR. LEE:

BRIEFLY, JUDGE –

THE COURT: YOU CAN COME TO THE
PODIUM, PLEASE, SIR.
[15] MR. LEE: I WILL BE – I JUST WANT
TO BE PERFECTLY CLEAR THAT WE’VE NEVER
AGREED TO THIS SETUP, AND THAT NO ONE
MADE A REQUEST FROM OUR DEFENDANTS
AND THE PEOPLE WHO WE HAVE A CONTRACT
WITH FOR RETURN OF FUNDS, AND THAT WE
NEVER DEEMED THIS PROCEDURE FAIR AND
REASONABLE.
IT SEEMED TO US THAT BEFORE YOU EVEN
HAD REVIEWED ANYTHING YOU HAD ALREADY
MADE A DECISION. THAT’S WHY YOU ASKED FOR
THE ENTIRE AMOUNT THAT WE WERE EVEN
PAID TO BE PUT INTO THE REGISTRY FROM THE
BEGINNING, AND WE JUST DID NOT OBJECT UNTIL AFTER WE HAD CONSULTED COUNSEL.
SO THAT WAS WHAT THE SITUATION MORE
WAS. IT WASN’T THAT WE AGREED BECAUSE WE
NEVER AGREED, JUDGE. IT WAS JUST THAT WE
DIDN’T UNDERSTAND EVEN WHAT WAS BEING
ATTEMPTED TO BE ACCOMPLISHED. LIKE I SAID

App. 42
IN 20 YEARS, I’VE NEVER HAD THIS SITUATION
OCCUR. THAT’S ALL I HAVE TO SAY, SIR.
THE COURT:

ALL RIGHT. MR. BENNETT.

MR. BENNETT:

NO, SIR.

THE COURT: YOU HAVE NO CORRECTION TO THE STATEMENTS OF THE FACTS AS
STATED THEN? NEITHER COUNSEL HAS A CORRECTION TO THOSE STATEMENTS –
MR. BENNETT:
THE COURT:
LEE SAID?

I’LL ADOPT –

– OTHER THAN WHAT MR.

MR. BENNETT:
STATEMENTS.

I’LL ADOPT MR. LEE’S

THE COURT: ALL RIGHT. AND YOU –
NEITHER COUNSEL WISHES TO BE HEARD FURTHER ON WHAT SANCTIONS THE COURT
SHOULD [16] PURSUE FOR NONCOMPLIANCE?
I’M JUST GIVING YOU OPPORTUNITIES. I’VE AFFORDED THAT ONCE. I’M GIVING YOU ONE FINAL OPPORTUNITY.
MR. LEE: I GUESS I WOULD SAY FIRST
OF ALL, JUDGE, IN TERMS OF FUNDS, LIKE I
SAID I DON’T HAVE THE FUNDS. I NEVER RECEIVED THE FUNDS. THE FUNDS HAVE NOTHING TO DO WITH ME. THE FEES ARE NOT PAID
TO ME. SO IN REGARDS TO MYSELF PERSONALLY AND MR. BENNETT, I DON’T THINK THAT
WAS TO US.

App. 43
TO THE EXTENT THE FIRM IS BEING ORDERED TO DEPOSIT MONEY INTO THE REGISTRY FOR FEES THAT WERE PAID, CUSTOMARILY
ON THIS, YOU KNOW, PEOPLE DO THE FINE-ADAY THING UNTIL PEOPLE PAY THE MONEY OR
WHATEVER. THAT WOULD SEEM TO BE TO ME
THE APPROPRIATE RESOLUTION IN THIS SITUATION, AND THE COURT COULD TACK ON A FEE
EVERY DAY WE DON’T PAY, AND LIKE I SAID,
WHEN I GET THE MONEY I WILL PAY OR THE
FIRM WILL PAY BECAUSE LIKE I CAN SAID I
DON’T HAVE THE MONEY.
THE COURT: ANYTHING YOU WANT TO
ADD, MR. BENNETT?
MR. BENNETT:

THAT’S ALL I HAVE,

JUDGE.
THE COURT: ALL RIGHT. I’LL TAKE THE
MATTER UNDER ADVISEMENT AND WILL ISSUE
AN ORDER.
ANYTHING FROM THE GOVERNMENT?
MR. HERTZBERG:
THANK YOU.
THE COURT:

NO, YOUR HONOR.

WE’RE IN RECESS.

(PROCEEDINGS CONCLUDED.)

App. 44
[17] CERTIFICATE
UNITED STATES OF AMERICA
NORTHERN DISTRICT OF GEORGIA
I, ANDRE G. ASHLEY, DO HEREBY CERTIFY
THAT I AM A U.S. DISTRICT REPORTER FOR THE
NORTHERN DISTRICT OF GEORGIA, THAT I REPORTED THE FOREGOING AND THE SAME IS A
TRUE AND ACCURATE TRANSCRIPTION OF MY
MACHINE SHORTHAND NOTES AS TAKEN
AFORESAID.
IN TESTIMONY WHEREOF I HAVE HEREUNTO SET MY HAND ON THIS 9TH DAY OF MAY,
2019.
S/ ANDRE G. ASHLEY
ANDRE G. ASHLEY
OFFICIAL COURT REPORTER
NORTHERN DISTRICT OF GEORGIA

App. 45
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES OF AMERICA
v.
FREDRICO PACHECO-ROMERO, 1:19-cr-00077
et al.,
Defendants.
DEFENDANTS’ OBJECTIONS TO
THE MAGISTRATE COURT’S ORDER
REQUIRING RETURN OF FUNDS
(Filed May 7, 2019)
COME NOW Defendants FREDDY PACHECOROMERO, CARLOS MARTINEZ, EDUARDO LOPEZ,
VICTOR MANUEL SANCHEZ, JORGE MENDOZA
PEREZ, and SANTANA CARDENAS, collectively referred to as “Defendants,” by and through undersigned
counsel and pursuant to 28 U.S.C. § 636(b)(1)(A) and
Fed. R. Crim. P. 59(a), hereby move this Court to set
aside the Magistrate’s April 24, 2019 ordering the Defendants to file Motions to Return Fees and ordering
the Defendants’ prior counsel to deposit $15,000 into
the Court Registry (the “Order”). [Doc. 107]. In support,
Defendants show the Court the following:
FACTS AND PROCEDURAL HISTORY
On February 9th, 2019, attorneys from Taylor,
Lee & Associates (hereinafter “TLA”) began its

App. 46
representation of the Defendants1 Attorneys from TLA
interviewed the Defendants at the Doraville city jail,
Clayton County jail, and Henry County jail immediately upon learning of their whereabouts and within
hours of their arrests. From the very inception of this
case, the Government’s strategic attempts to separate
Defendants from their counsel are apparent from the
record. While Lopez, Cardenas, Sanchez, and Mendoza-Perez were all initially detained at the Doraville
city jail, they were transferred without notice or explanation to the Atlanta city jail and interrogated for
hours without access to counsel.
TLA filed a habeas corpus action against the Drug
Enforcement Administration (“DEA”) on their behalf,2
and these five Defendants were presented to a Magistrate shortly thereafter. [Doc. 2, 5, 8, 11, 14]. The Government’s intent to separate certain of the Defendants
from their attorneys is also evident from the treatment
of Defendant Pacheco-Romero. The Government arranged Pacheco-Romero’s first appearance to be conducted separately from his co-Defendants without his
retained counsel present. [Doc. 20-22]. After PachecoRomero notified his appointed lawyer and the court
that he had retained TLA, he was advised by the court

1

The Order erroneously dates the attorney-client relationship to February 20, 2019, but this only reflects the date that the
official entry of appearance was electronically filed. Prior to this
case being created through the filing of a criminal complaint, the
first Magistrate involved in this case received notice of TLA’s representation of Defendants via email.
2
See Mendoza, et. al. v. Uttim, 1:19-cv-0722-MLB.

App. 47
to either retain different counsel or continue with appointed counsel. [Doc. 73, Ex. 1, pg. 24-34].
Furthermore, conflict advisories have been administered to the Defendants each time they have appeared in court, on February 13, February 15, March 6,
and March 14, 2019. Despite the potential coercive
pressure created by the repeated warnings, all Defendants have continued to maintain their desire to be represented by TLA. [Doc. 73, Ex. 1, pg. 4-21]. The
Government filed a motion seeking the disqualification
of counsel on March 12, 2019. [Doc. 70]. Prior to the
filing of the Government’s disqualification motion, TLA
filed motions to vacate the Magistrate’s detention orders on behalf of Lopez and Martinez: however, the motions were tabled until the disqualification issue could
be decided. [Doc. 62, 63]. At the Rule 44 hearing on
March 14, 2019, no evidence or testimony was presented by the Government to justify disqualification.
Instead, the Magistrate relied on the allegations in the
criminal complaint, the Government’s briefs, TLA’s response brief, sworn testimony of each of the six Defendants, the conflict waivers executed by the Defendants,
and retainer agreements provided under seal. [Doc. 70,
72, 73, 75]. Lee and Bennet were disqualified on March
22, 2019. [Doc. 76].3 Moreover, shortly thereafter, the
3

At the Rule 44 hearing, the Magistrate requested that TLA
provide records concerning the payment of Defendants’ legal fees
under seal. Later that afternoon, the Magistrate’s request was
modified to include affidavits identifying the persons who paid the
fees, explaining their relationship to the Defendants, and disclosing the source of the funds used to pay the legal fees. However,
before the Defendants’ family members could even be contacted,

App. 48
Magistrate entered the Order, requiring a deposit of
$15,000 into the Court Registry and that newly appointed CJA counsel submit Motions for a Return of
Fees.
ARGUMENT AND CITATION OF AUTHORITY
A.

Standard of Review.

Under Rule 59(a) of the Federal Rules of Criminal
Procedure, a magistrate judge may rule on any matter
referred by a district judge that does not dispose of a
charge or defense. If any party files objections to a magistrate judge’s order on non-diapositive matters, “the
district judge must consider timely objections and
modify or set aside any part of the order that is contrary to law or clearly erroneous.” Fed. R. Crim. P.
59(a).
B. Objection No. 1 – Neither the Defendants
nor their Families Filed a Motion to Return Fees
Prior to the Magistrate Ordering that Funds be
Returned.
First and foremost, it must be noted that no Defendant, has requested or asked for fees to be returned
for work not performed, and in fact, the Magistrate
the disqualification order was entered. [Doc. 76]. The Magistrate
then scheduled a second ex parte hearing to further inquire into
the attorney-client relationship between TLA and Defendants.
[Doc. 77]. After considerable efforts to comply with the Magistrate’s request, TLA provided the requested affidavits on March
29, 2019 in a show of good faith, despite having no legal or ethical
obligation to do so.

App. 49
Court ordered that fees be returned, sua sponte, without any hearing or determination of what fees, if any
should be returned. In addition, upon appointment of
CJA counsel, the Magistrate Court ordered new CJA
to file Motions to Return Fees. After a thorough search
of case law across all federal circuits, there does not
seem to be any justification or authority allowing a
magistrate judge to sua sponte decide to return fees in
a criminal setting.
C. Objection No. 2 – No Hearing was held or
ordered to determine whether or not what
money, if any should be returned.
Second, the Magistrate Court not only ordered
fees returned sua sponte, it made the determination to
seize funds paid to the Defendants’ prior counsel without any hearing to determine what work had been
done or exactly how much the Defendants had paid to
TLA. Such a blatant seizure clearly requires that the
minimum requirements of due process be adhered to
and that Defendants’ counsel are entitled to notice, a
hearing and review.
D. Objection No. 3 – The Engagement
Agreements Specifically Limits Fee Disputes to
The State Bar or Arbitration.
Paragraph 15 of the Engagement Agreement specifically sets arbitration with the Georgia Bar or private arbitration as the sole jurisdictions in which fee
disputes between the parties may be resolved.

App. 50
Accordingly, because there is an arbitration clause in
the Engagement Agreements, the Magistrate Judge
does not have the authority to address any fee dispute,
if one even existed between the parties.
E. Objection No. 4 – Most of the Defendants
Already Hired New Private Counsel.
To the extent that the Order is based on CJA concerns and certain requirements that indigent defendants provide for their own defense to the extent that
they are able, at least three, or half, of the Defendants
and their families immediately made arrangements to
hire new retained counsel. Accordingly, most of the Defendants have already moved to provide for their own
defense, rendering any concerns regarding reimbursement under the CJA for indigent defense moot.
F. Objection No. 5 – Lee and Bennett are
Not in Possession of any Fees.
Lastly, the Order and several of the subsequent orders proceed as if the Engagement Agreements were
between the Defendants and Lee and/or Bennett. Lee
and Bennett are merely employees of the Taylor Lee &
Associates LLC, and TLA is the actual holder of the
fees. Lee and Bennett do not possess the funds that the
Order is even seeking to have returned and deposited
into the Court Registry.

App. 51
CONCLUSION
The Order is improper for the various reasons set
forth above and should therefore be vacated.
Respectfully submitted this 7th day of May, 2019.
TAYLOR, LEE & ASSOCIATES, LLC.
/s/ Jerome D. Lee
Jerome D. Lee, Esq.
Georgia Bar No. 443455
6855 Jimmy Carter Boulevard
Building 2100, Suite 2150
Norcross, Georgia 30071
Telephone: (770) 650-7200
Facsimile: (678) 735-4512
Email: criminal@htlweb.com

App. 52
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES OF AMERICA
v.
FREDRICO PACHECO-ROMERO, 1:19-cr-00077
et al.,
Defendants.
CERTIFICATE OF SERVICE
I hereby certify that I have served a copy of the
above and foregoing Objections to the Magistrate’s Disqualification Order on the Office of the U.S. Attorney
for the Northern District of Georgia by electronic delivery via the Court’s CM/ECF filing system.
This 7th day of May, 2019.
/s/ Jerome D. Lee
Jerome D. Lee, Esq.
Georgia Bar No. 443455

